0

BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Amicus Curiae Professors of Communications Law,
Policy, and Administrative Law, and Doctors of
Economics and Social Science m Support of
Respondents in 19-1231 & 19-1241, Federal
Communications Commission, et al. v. Prometheus
Radio Project, et al. and National Association of
Broadcasters, et al. v. Prometheus Radio Project, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, and Next Day and e-mail service to the
following parties listed below, this 23rd day of
December, 2020:
Helgi C. Walker
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
hwalker@gibsondunn.com

Counsel for Petitioners
National Association of Broadcasters, et al.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners FCC, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Ruthanne Mary Deutsch
Deutsch Hunt, PLLC
300 New Jersey Ave., NW, Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com

Counsel for Respondents
Prometheus Radio Project; Media Mobilizing Project;
Free Press; Office of Communication, Inc. of the United
Church of Christ, et al.
Jack N. Goodman
Law Offices of Jack N Goodman
1200 New Hampshire Ave, NW
Suite 600
Washington, DC 20036
(202) 776-2045
j ack@jackngoodman.com

Counsel for Independent Television Group
Dennis Lane
Stinson LLP
1775 Pennsylvania Ave., NW. Suite 800
Washington, DC 20006
(202) 572-9906
dennis.lane@stinson.com

Counsel for Multicultural Media, Telecom and Internet
Council and the National Association of Black Owned
Broadcasters, Inc.

Catherine J .K. Sandoval
Counsel of Record
Santa Clara University School of Law
500 El Camino Real
Santa Clara, CA 95008
(408) 551-1902
Csandoval@scu.edu
John S. Friend
Of Counsel
Friend Law, PSC
P.O. Box 21035
Louisville, KY 40221
Johnny@friendlawky.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 23, 2020.

)
Donna J.
Becker Ga agher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary P J"lic, State of Ohio
My Commission Expires
February 1.:, ,.3

